   Report No. D-2008-059     March 6, 2008




Supplemental Funds Used for Medical Support for
         the Global War on Terrorism
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BUMED                 Bureau of Medicine and Surgery
DFAS                  Defense Finance and Accounting Service
DHP                   Defense Health Program
FAD                   Funding Authorization Document
GWOT                  Global War on Terrorism
MHS                   Military Health System
MTF                   Military Treatment Facility
TMA                   TRICARE Management Activity
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                            March 6, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Supplemental Funds Used for Medical Support for the Global War
         on Terrorism (Report No, 0-2008-059)

       We are providing this report for review and comment. We considered comments
from the Assistant Secretary of Defense (Health Affairs), the Army, and the Air Force
when preparing the final report.

        000 Directive 7650,3 requires that all recommendations be resolved promptly.
We consider comments from the Assistant Secretary of Defense (Health Affairs) to be
fully responsive on Recommendations 2,a" 2,b" and 2,d. We consider comments on
Recommendations I. and 2.c. to be partially responsive and request additional comments
by May 5, 2008.

       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audyorktown@dodig.mil. Copies of the management comments
must contain the actual signature ofthe authorizing official. We cannot accept the
I Signed I symbol in place of the actual signature, If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed
to Michael A. Joseph at (757) 872-4801, extension 223, or Mr. Timothy J. Tonkovic at
(757) 872-4763. See Appendix B for the report distribution. The team members are
listed inside the back cover.




                                ~achII
                                   Acting Assistant Inspector General
                                   Readiness and Operations Support
                Department of Defense Office of Inspector General
Report No. D-2008-059                                                      March 6, 2008
   (Project No. D2007-D000LF-0032.000)

                Supplemental Funds Used for Medical Support
                      for the Global War on Terrorism

                                 Executive Summary

Who Should Read This Report and Why? DoD military and civilian personnel who
are involved in the management of supplemental funds to support the Global War on
Terrorism medical mission should read this report. It discusses the recording and
reporting of Global War on Terrorism supplemental fund obligations for the Military
Health System.

Background. The medical mission of the DoD Military Health System is to enhance our
Nation’s security by providing health care to support the full range of military operations
while sustaining the health of eligible beneficiaries. The Military Health System
supports contingency operations for the Global War on Terrorism. To sustain
contingency operations, Congress provides supplemental funds to cover contingency
costs above those in baseline budgets. For FY 2006, the Military Health System received
$1.15 billion in supplemental funds.

DoD Supplemental and Cost of War Execution Reports, hereafter referred to as Cost of
War reports, provide the monthly and cumulative incremental costs incurred by DoD
Components and other organizations. DoD policy defines incremental costs as those
costs that would not have been incurred had the contingency operation not been
supported.

Results. The Military Department Surgeons General did not consistently report
obligations of Global War on Terrorism supplemental funds by mission as required by
the TRICARE Management Activity. The missions are Military Health System
categories used by the TRICARE Management Agency to request, justify, and execute
Global War on Terrorism supplemental funds. Without accurate and consistent reporting
of Global War on Terrorism supplemental fund obligations, DoD has no assurance that
the Military Health System used funds for the missions for which they were requested.
Additionally, DoD cannot ensure that the amounts reported in the FY 2006 Defense
Health Program Cost of War report are accurate and complete. To improve the reporting
of Global War on Terrorism supplemental fund obligations, we recommend that
personnel from the Office of the Assistant Secretary of Defense (Health Affairs) work
with personnel from the Military Department Surgeons General offices and Military
Department financial management offices to develop the best solution for recording and
reporting supplemental fund obligations by mission or other category deemed
appropriate. The solution should be coordinated with the steering group established by
the Under Secretary of Defense (Comptroller)/Chief Financial Officer to oversee the
improvement of the DoD Cost of War reporting process. We also recommend that the
Assistant Secretary of Defense (Health Affairs) establish a working group to develop
policies and procedures for identifying supplemental funds on funding documents,
standardizing definitions and criteria for classifying Global War on Terrorism
obligations, and applying incremental costing to Global War on Terrorism transactions.
We identified a material internal control weakness in the recording and reporting of
Global War on Terrorism supplemental fund obligations for the Military Health System.
See the Finding section of the report for the detailed recommendations.

Management Comments and Audit Response. A draft of this report was issued on
November 26, 2007. The Assistant Secretary of Defense (Health Affairs) concurred with
the audit finding and conclusions and stated that his office is working closely with the
other DoD Components to correct deficiencies related to recording and reporting Global
War on Terrorism supplemental obligations. The Assistant Secretary also agreed that a
material weakness exists concerning the recording and reporting of Global War on
Terrorism supplemental fund obligations within the Military Health System. The
Assistant Secretary determined that recording and reporting Global War on Terrorism
obligations by mission is the best solution and stated that Military Health System Global
War on Terrorism analysts have met to establish standard mission descriptions for use by
the Military Health System in recording and reporting Global War on Terrorism
obligations. The Assistant Secretary also agreed to convene a working group to develop
guidance outlining policy and procedures for recording and reporting obligations of
Global War on Terrorism supplemental funds for the Military Health System.

Although not required, the Army and Air Force Surgeons General also provided written
comments to the report. The Army Surgeon General concurred with the
recommendations and stated that his office provides detailed Global War on Terrorism
funding guidance; however, that guidance does not outline procedures for identifying
Global War on Terrorism funding on Funding Authorization Documents by mission.
Additionally, the Army Surgeon General stated that, since 2004, his office has requested
the Army Audit Agency to perform independent audits of controls over Global War on
Terrorism funds. The Air Force Surgeon General concurred with the finding and stated
that his office is working to establish new cost centers that will allow more precise
Global War on Terrorism accounting and tracking of obligations by mission category.
The Air Force Surgeon General also mentioned his office’s participation in a working
group with representatives from the Army, Navy, and TRICARE Management Activity
to develop consistent policies and procedures for recording and reporting Global War on
Terrorism supplemental fund obligations.
We request that the Assistant Secretary of Defense (Health Affairs) provide additional
comments on the results of efforts to coordinate the best solution for recording and
reporting Global War on Terrorism supplemental fund obligations with the steering group
established by the Under Secretary of Defense (Comptroller). We also request that the
Assistant Secretary provide additional comments regarding his position on the current
capabilities of the accounting system used by the Army Medical Command and a
projected date when the best solution will be fully implemented. We request that the
Assistant Secretary provide the guidance and criteria established to date related to the
procedures for determining and documenting incremental costing of Global War on
Terrorism supplemental funds and provide an estimated date when the completed
standard guidance will be published. We request the Assistant Secretary provide
comments on the final report by May 5, 2008. See the Review of Internal Controls
section for a discussion of the material weakness discussed in this report. See the
Finding section of the report for a discussion of management comments on the
recommendations; see the Management Comments section of the report for the complete
text of the comments.



                                            ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Criteria                                                               3

Objectives                                                             4

Review of Internal Controls                                            4

Finding
     Recording and Reporting Obligations of Global War on Terrorism
       Supplemental Funds for the Military Health System               6

Appendixes
     A. Scope and Methodology                                         20
          Prior Coverage                                              21
     B. Report Distribution                                           22

Management Comments
     Assistant Secretary of Defense (Health Affairs)                  25
     Department of the Army                                           28
     Department of the Air Force                                      32
Background
    The Office of the Assistant Secretary of Defense (Health Affairs) expressed
    concerns over the reporting and use of Global War on Terrorism (GWOT)
    supplemental funding by the Military Health System (MHS). This report
    discusses the use of supplemental funds for medical support to GWOT.
    Specifically, the report addresses the recording and reporting of obligations of
    GWOT supplemental funds for the MHS and guidance on the use of those funds.

    Military Health System. The medical mission of the DoD MHS is to enhance
    DoD and our Nation’s security by providing health support for the full range of
    military operations while sustaining the health of eligible beneficiaries. The MHS
    provides worldwide medical and dental services to the active forces and other
    eligible beneficiaries.

    Global War on Terrorism. Following the terrorist attacks of September 11,
    2001, the United States initiated military operations to combat terrorism.
    Operation Iraqi Freedom and Operation Enduring Freedom are military operations
    related to Iraq and Afghanistan, respectively. Operation Noble Eagle is the effort
    to defend the United States from further terrorist attacks. These and other
    operations worldwide are collectively referred to as GWOT. The Under Secretary
    of Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO) considers
    GWOT a contingency operation and requests funds from Congress for GWOT
    through emergency supplemental and bridge appropriations.

    Supplemental appropriations are additional budget authority given to DoD
    beyond original annual estimates for DoD programs or activities that are too
    urgent to be postponed until the next regular appropriation. Bridge funds are
    added to annual appropriations to make money available at the beginning of the
    fiscal year until supplemental appropriations are made available. For FY 2006,
    MHS did not receive bridge funds, but did receive supplemental funds.

    Cost of War Reports. The Defense Finance and Accounting Service (DFAS) is
    responsible for preparing monthly status reports known as “Supplemental and
    Cost of War Execution Reports,” hereafter referred to as Cost of War reports.
    Cost of War Reports provide the monthly and cumulative incremental costs
    incurred by the Military Departments and other DoD Components. DFAS
    published 12 consolidated Cost of War reports for FY 2006. The consolidated
    reports are shown in Table 1.




                                        1
                   Table 1. Consolidated Cost of War Reports for
                         FY 2006 as of September 30, 2006
    1.    FY 2003 Appropriations (Fourth Year Execution)
    2.    FY 2004 Appropriations (Third Year Execution)
    3.    FY 2004 Title IX Appropriation (Third Year Execution)
    4.    FY 2005 Appropriations (Second Year Execution)
    5.    FY 2005 Afghanistan Security Forces Fund (Second Year Execution)
    6.    FY 2005 Coalition Support Fund (Second Year Execution)
    7.    FY 2005 Iraq Security Forces Fund (Second Year Execution)
    8.    FY 2005 Title IX Appropriation (Second Year Execution)
    9.    FY 2006 Appropriations
    10.   FY 2006 Afghanistan Security Forces Fund
    11.   FY 2006 Iraq Security Forces Fund
    12.   FY 2006 Supplemental and Cost of War Execution Report (DoD Total)


The consolidated Cost of War reports include individual reports for each Military
Department, Defense Agency, DoD Component, and other organizations such as
the TRICARE Management Activity (TMA) that obligated GWOT funds for
Operations Iraqi Freedom, Noble Eagle, and Enduring Freedom or for other
GWOT initiatives such as the Coalition Support Fund and the Afghanistan
Security Forces Fund. TMA reports monthly GWOT supplemental fund
obligations to DFAS in the Defense Health Program (DHP) Cost of War report.
The FY 2006 DHP Cost of War report is included in the FY 2006 Appropriations
consolidated (Cost of War) report. For FY 2006, TMA reported cumulative costs
of $1.09 billion in GWOT supplemental fund obligations.

GWOT Supplemental Funds for the MHS. For FY 2006, the MHS received
$1.15 billion in supplemental funds in support of GWOT. The MHS received a
total of $ 2.15 billion in GWOT supplemental and bridge funds for FYs 2003
through FY 2005. To estimate the cost of contingency operations, DoD uses the
Contingency Operations Support Tool model. The model uses information
derived from actual DoD-wide expenditures from prior contingency operations to
estimate current operational and support costs for deploying units. For
requirements determinations, TMA uses the medical planning section of the
model to develop MHS requirements for contingency operations. Model
information is updated from previous MHS GWOT mission costs. TMA also
works with the Military Department Surgeons General to refine the model
estimates and, if necessary, identify additional requirements. For FY 2006, TMA
based its GWOT supplemental fund request on nine missions included in the
model and an additional six that the Military Department Surgeons General and
TMA identified as relevant. Table 2 shows the FY 2006 DHP GWOT
supplemental fund request by mission.




                                        2
                  Table 2. FY 2006 DHP GWOT Supplemental Funding Request
                                              (in millions)
                                  Mission                                       Amount
      Pre and Post Deployment Medical Activities1                              $ 186.2
      Medical Operations Outside of Theater 1                                     36.9
      Aeromedical Evacuation1                                                      7.2
      Medical Backfill of Deployed Staff1                                        192.6
      Non-Military Treatment Facility Support Activities1                         16.7
      Mobilized Reserve Component Medical Care1                                  583.4
      Armed Services Blood Program1                                               13.4
      Deployment Health Support Directorate1                                       6.4
      Post Deployment Health Reassessments1                                       68.0
      Care of the Dead2                                                             .0
      Active Duty Casualty Care2                                                    .0
      Operation Noble Eagle2                                                        .0
      Army Modularity2                                                            42.8
      Joint Medical Workstation2                                                    .0
      Medical Situational Awareness in the Theater2                                 .0

          Total                                                                $ 1,153.6
      1
       One of nine missions included in the Contingency Operation Support Tool model in support
      of the MHS request for GWOT supplemental funds. Personnel from the Office of Management
      and Budget, USD(C)/CFO, Military Departments, and TMA developed the missions.
      2
       One of six missions developed outside the Contingency Operation Support Tool model by
      TMA and the Military Department Surgeons General.



Criteria
     DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
     Chapter 23, “Contingency Operations,” September 2005, provides financial
     policy for military contingency operations. DoD policy requires that controls,
     accounting systems, and procedures provide proper identification and recording
     of costs incurred in supporting contingency operations. Chapter 23 is not
     intended to address wartime activities or unique circumstances that require U.S.
     military forces to be placed on a wartime footing. Costs associated with
     contingency operations are limited to incremental costs or those costs over and
     above baseline costs for training, operations, and personnel. Each DoD
     Component participating in a contingency operation is required to establish a
     unique special program code in their accounting systems to capture costs.
     Additionally, each organization that supports a contingency operation shall
     capture related obligations in its accounting system at the lowest possible level of
     the organization. When actual costs are not available, an auditable methodology
     should be established and documented for capturing costs.




                                               3
Objectives
           Our overall audit objective was to determine whether GWOT supplemental funds
           for the pre and post deployment medical activities1 and medical backfill of
           deployed staff2 missions were properly justified and whether sufficient controls
           on their use were implemented. To satisfy the objective, we intended to
           statistically sample and determine the appropriateness of GWOT supplemental
           fund obligations for pre and post deployment medical activities and medical
           backfill of deployed staff missions.

           Because no central database of MHS obligations of GWOT supplemental funds
           by mission exists from which to select a sample, we shifted the focus of the audit
           away from the appropriateness of supplemental fund obligations to the adequacy
           of reporting of supplemental fund obligations by mission. We continued to
           emphasize the process for recording and reporting pre and post deployment
           medical activities and medical backfill of deployed staff missions; however, we
           broadened the scope of our work to encompass the recording and reporting of all
           15 missions shown in Table 2. We also evaluated the process TMA uses for
           reporting supplemental fund obligations by mission in the FY 2006 DHP Cost of
           War report. See Appendix A for a discussion of the audit scope and methodology
           and for prior audit coverage related to the audit topic.


Review of Internal Controls
           DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
           Procedures,” January 4, 2006, requires DoD organizations to implement a
           comprehensive system of management controls that provides reasonable
           assurance that programs are operating as intended and to evaluate the adequacy of
           the controls.

           We identified a material weakness in the recording and reporting of GWOT
           supplemental fund obligations for MHS as defined by DoD Instruction 5010.40.
           Internal controls were not adequate to ensure accurate, consistent, and uniform
           reporting of pre and post deployment medical activities, medical backfill of
           deployed staff, and other mission obligations by the Military Department
           Surgeons General. Only Army Military Treatment Facilities (MTFs) were
           required to submit monthly reports on obligations in support of GWOT missions.
           The Army MTF reporting systems were manual, and no automated capability
           existed at Army MTFs for reporting GWOT supplemental fund obligations by
           mission. Navy and Air Force MTFs did not maintain manual or automated

1
    Pre and post deployment obligations include medical examinations, special immunizations, optical
    fabrication, special mandated laboratory tests, health assessments and information, prophylaxis,
    deployment platform labor costs, and incremental costs for supplies and equipment to support
    deployment activities.
2
    Medical backfill obligations include the costs to replace medical personnel deployed in support of
    contingency operations. Costs include travel, per diem, and lodging for contracted or civilian medical
    personnel.



                                                       4
systems for reporting supplemental fund obligations by mission. Implementation
of the recommendations will improve the accuracy and reliability of the Cost of
War reports, will provide MTFs a mechanism for accurately tracking and
recording GWOT supplemental fund obligations by mission, and will provide a
better link between budget justification and execution. We will provide a copy of
the report to the senior official responsible for management controls in the offices
of the USD(C)/CFO, TMA, DFAS, the Military Department Assistant Secretaries
for Financial Management and Comptroller, and the Military Department
Surgeons General.




                                     5
            Recording and Reporting Obligations of
            Global War on Terrorism Supplemental
            Funds for the Military Health System
            The Military Department Surgeons General do not consistently report
            GWOT supplemental fund obligations by the missions required by TMA.
            Reporting of supplemental fund obligations needs improvement because:

                    •   Military Department financial systems are not able to record
                        and report supplemental fund obligations by the missions that
                        TMA uses to request, justify, and support the execution of
                        supplemental funds; and

                    •   guidance is inconsistent and incomplete on the use and
                        application of supplemental funds.

            Without accurate and consistent reporting of supplemental fund
            obligations by mission, DoD has no assurance that MHS used funds for
            the missions for which they were intended. Additionally, DoD could not
            ensure that the amounts reported in the FY 2006 DHP Cost of War report
            were accurate and complete.


Focus of Site Visits
     At each MTF visited, we focused on pre and post deployment medical activities
     and medical backfill of deployed staff missions and determined the level of detail
     available to support the reporting of GWOT supplemental fund obligations.
     Pre and post deployment medical activities and medical backfill of deployed staff
     are 2 of the 15 missions required for reporting supplemental fund obligations
     during FY 2006. For FY 2006, the Army and Navy reported financial
     information for 10 missions, and the Air Force, 7 missions.


Military Department Financial Systems
     Pre and post deployment medical activities, medical backfill of deployed staff,
     and other mission obligations were not consistently reported to TMA, and TMA
     cannot ensure the accuracy of the amounts reported in the FY 2006 DHP Cost of
     War report.

     TMA Mission Reporting Requirements. Reporting of GWOT supplemental
     fund obligations needs improvement, in part because Military Department
     financial systems are not compatible with TMA mission reporting requirements.
     The Military Department financial systems are able to track how much is
     obligated for GWOT-related activities for MHS only after personnel assign a
     GWOT contingency code to financial transactions. Moreover, the Military


                                          6
Department financial systems classify GWOT supplemental fund obligations by
standard accounting categories such as contracts, supplies, civilian pay, and
equipment instead of by mission, as required by TMA. The systems do not
capture the information needed to report obligations by the pre and post
deployment medical activities, medical backfill of deployed staff, and other
missions TMA uses to request and justify supplemental funds it reports in the
DHP Cost of War report.

GWOT supplemental fund obligations by MHS are made from the same
Operation and Maintenance account that funds regular baseline operations.
Because it was not possible to identify the obligations in the Military Department
accounting systems by mission, each Surgeon General office developed its own
process and method for allocating and reporting obligations.

The Army Surgeon General required Army MTFs to report GWOT supplemental
fund obligation amounts by mission each month. The Army Surgeon General
also issued guidance requiring each Regional Medical Command or Subordinate
Medical Command to certify that those reports were an accurate and reasonable
representation of MTF support of GWOT. At the two Army MTFs visited,
personnel had developed manual systems that tracked and classified GWOT
supplemental fund obligations by transaction and by mission. At those locations,
we were able to identify how much was obligated in support of pre and post
deployment medical activities, medical backfill of deployed staff, and other
missions. Without the manual tracking systems, we would not have been able to
identify individual GWOT obligations by mission.

The Navy Surgeon General used overall information about obligations of GWOT
supplemental funds for MHS to judgmentally allocate obligations to 10 of the 15
missions. The Air Force Surgeon General also judgmentally allocated obligations
to 6 of the 15 missions and conducted periodic data calls to Major Commands and
MTFs to obtain obligations on a seventh mission, medical backfill of deployed
staff. Neither the Navy Surgeon General nor the Air Force Surgeon General
maintained an auditable methodology for determining obligations by mission or
required reporting of monthly obligations by mission. None of the Navy or Air
Force MTFs we visited maintained a manual system that identified how funds
were obligated for pre and post deployment medical activities, medical backfill of
deployed staff, or other missions during FY 2006. Table 3 shows the FY 2006
GWOT supplemental fund obligations that the Military Departments reported to
TMA and the obligations recorded in the Military Department accounting
systems.




                                     7
                Table 3. Military Department FY 2006 GWOT
                       Supplemental Fund Obligations
                                   (in millions)
                                                   Identified in
        Military               Reported            Accounting
       Department              to TMA                System         Difference
         Army                  $ 424.01            $ 424.01          $ .00
         Navy                     71.70               71.66             .04
        Air Force                 83.19               72.59           10.60


GWOT supplemental fund obligations for MHS reported by the Army accounting
system were consistent with the amounts reported to TMA. The Navy Bureau of
Medicine and Surgery (BUMED) was originally unable to provide an all-
inclusive listing of GWOT supplemental fund obligations from its accounting
system. We met with BUMED personnel, who identified additional GWOT
supplemental fund obligations that originally had been recorded as baseline
obligations. BUMED subsequently issued FY 2007 guidance emphasizing the
importance of identifying GWOT supplemental fund obligations in the accounting
system. After BUMED and Navy MTFs recoded baseline obligations and made
other changes, BUMED identified $71.66 million in GWOT supplemental fund
obligations.

The Air Force accounting system identified $10.60 million less in GWOT
supplemental fund obligations for MHS than what was reported to TMA. The Air
Force Surgeon General issued an e-mail on May 9, 2006, to Major Command
resource managers stating that GWOT supplemental fund obligations should be
coded for the GWOT contingency to the maximum extent possible in the
accounting system. This occurred more than 7 months into FY 2006. As a result,
the Air Force could not provide reasonable assurance that the amounts reported to
TMA were an accurate representation of what was actually obligated in the Air
Force accounting system. This result further emphasizes the importance of
accurate and complete reporting of GWOT supplemental fund obligations in the
accounting system.

MTF Reporting. Because the Military Department accounting systems do not
record GWOT supplemental fund obligations by mission, we compared total
FY 2006 GWOT supplemental fund obligations at the six MTFs visited with the
amounts that the MTFs received (Table 4).




                                    8
    Table 4. FY 2006 GWOT Supplemental Funding and Obligations
                   Identified in Accounting Systems
                                     (in millions)


             MTF                Funding Received     Obligations   Difference

 Eisenhower Army Medical
 Center, Fort Gordon, GA            $ 22.89           $ 23.85      $ (.96)
 Madigan Army Medical
 Center, Fort Lewis, WA              35.97              35.93         .04
 Naval Hospital Pensacola,
 Pensacola, FL                         2.91              4.54       (1.63)
 Naval Hospital Camp Lejeune,
 Camp Lejeune, NC                      4.79              8.47       (3.68)
 59th Medical Wing, Lackland
 Air Force Base, TX                  27.13              24.36        2.77
 88th Medical Group,
 Wright-Patterson Air Force
 Base, OH                              8.52              7.89         .63


Accounting systems at three MTFs showed that GWOT supplemental funds were
not fully obligated during FY 2006. The other three MTFs recorded GWOT
supplemental fund obligations in excess of GWOT supplemental funds received.
Those MTFs may have had to reprioritize baseline needs to support beneficiary
care and simultaneously satisfy GWOT requirements.

GWOT Supplemental Fund Reporting by Mission. Without accurate and
consistent reporting of GWOT supplemental fund obligations by mission, DoD
has no assurance that MHS used GWOT supplemental funds for the missions for
which they were requested. For FY 2006, TMA received $1.15 billion in GWOT
supplemental funds and reported $1.09 billion in GWOT supplemental fund
obligations to DFAS. Table 5 shows the FY 2006 GWOT supplemental fund
obligations reported to DFAS, by mission.




                                        9
                    Table 5. FY 2006 GWOT Supplemental Funds
                         Requested and Reported by Mission
                                          (in millions)

                                                           Funds      Obligations
                      Mission                             Requested    Reported     Difference

 Pre and Post Deployment Medical Activities               $ 186.20     $ 152.70     $ 33.50

 Medical Operations Outside of Theater                       36.90         44.24      (7.34)

 Aeromedical Evacuation                                       7.20          6.38        .82

 Medical Backfill of Deployed Staff                         192.60        158.77      33.83

 Non-Military Treatment Facility Support Activities          16.70         20.62      (3.92)

 Mobilized Reserve Component Medical Care                   583.40        506.40      77.00

 Armed Services Blood Program                                13.40         11.45       1.95

 Deployment Health Support Directorate                        6.40          6.25        .15

 Post Deployment Health Reassessments                        68.00         40.56      27.44

 Care of the Dead                                              .00          2.36      (2.36)

 Active Duty Casualty Care                                     .00         60.63     (60.63)

 Operation Noble Eagle                                         .00         40.85     (40.85)

 Army Modularity                                             42.80         37.22       5.58

 Joint Medical Workstation                                     .00          1.00      (1.00)

 Medical Situational Awareness in the Theater                  .00           .41       (.41)

  Total                                               $ 1,153.60      $ 1,089.84    $ 63.76


Unlike the Army, the Navy and the Air Force did not implement a manual
tracking system of GWOT obligations, by mission, at MTFs. As a result, the
Navy and the Air Force could not provide reasonable assurance that amounts
reported to TMA, by mission, were properly categorized. As discussed later in
the report, the lack of clear guidance on how to classify and use GWOT
supplemental funds can impact the accuracy of Army, Navy, and Air Force
obligations reported to TMA.

The USD(C)/CFO stated that Operation Noble Eagle estimates would not be
included in the GWOT supplemental fund request for FY 2006. Congress
approved FY 2006 GWOT supplemental funds for MHS based on the requested
amounts shown in Table 5. However, as identified in Table 5, TMA reported
$40.85 million in costs associated with Operation Noble Eagle as part of the total


                                         10
$1,089.84 million in GWOT supplemental fund obligations. Additionally, TMA
used the excess $63.76 million of GWOT supplemental funds for unfunded non-
GWOT projects. As a result, DoD has no assurance that GWOT supplemental
funds were used for the missions for which the funds were requested.

Accurate and timely GWOT financial information gives TMA and the Surgeons
General the information necessary to manage the budgeting and execution of
GWOT supplemental funds. If mission reporting is to be the basis for requesting,
justifying, and executing GWOT supplemental funds, Military Departments must
have a consistent process or methodology for accurately, completely, and
uniformly reporting obligations of GWOT supplemental funds by mission.
Representatives from TMA and the Surgeons General should work with financial
management personnel in each Military Department to determine the best solution
for accounting and recording obligations of GWOT supplemental funds by
mission or other category deemed appropriate.

Under Secretary of Defense (Comptroller)/Chief Financial Officer Initiative.
On January 18, 2007, the USD(C)/CFO issued a memorandum stating that
improvements are needed in the DoD Cost of War reporting process. The
USD(C)/CFO directed DFAS to create a standard reporting process and
established a steering group to oversee the effort. To support the effort, the
USD(C)/CFO required the Services to:
          •   Identify by each Cost Breakdown Structure (CBS) line on the
              Cost of War reports if the data can be extracted from the
              accounting systems based on the data elements currently
              available.

          •   Determine all source systems that house data unique to the
              cost categories reported for the GWOT and determine what
              systems have the capability to directly send source data for the
              purposes of reporting to DFAS based on the current CBS
              elements.

          •   For systems that cannot directly feed source data for GWOT
              reporting to DFAS, determine what data elements and
              processes are needed to directly interface at the CBS element
              reporting levels.

          •   Determine necessary actions to comply with standards,
              policies, and business processes required to utilize standard
              data identifiers and outline the plan for implementation.

          •   Identify requirements for mapping the current accounting data
              elements to the CBS for the purpose of GWOT reporting.
              Focus should be placed on establishing requirements to
              eliminate work in collecting report data.

In March 2007, the steering group began the process of resolving policy, system,
and procedural issues that affect Cost of War reporting. This process should
improve the overall accuracy of Cost of War reporting for DoD. Personnel from
TMA, from the Military Department Surgeons General offices, and from Military
Department financial management offices should develop a solution for recording
and reporting supplemental fund obligations by mission or other appropriate
category. The solution should be coordinated with the steering group established
by the USD(C)/CFO.


                                       11
Guidance on Using GWOT Supplemental Funds
    TMA can enhance the reliability of recording and reporting GWOT supplemental
    fund obligations by improving guidance. Current guidance does not require
    identification of GWOT supplemental funds on Funding Authorization
    Documents (FADs), clearly explain how to determine the incremental cost of
    GWOT supplemental fund obligations, or clearly and consistently define missions
    for GWOT supplemental fund obligations.

    Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation,” September 2005, delineates financial policy
    and procedures for military contingency operations and states that DoD
    Components do not normally budget for contingency operations. DoD 7000.14-R
    also states:
           DoD policy requires that controls, accounting systems, and procedures
           provide, in financial records, proper identification and recording of
           costs incurred in supporting contingency operations.

    TRICARE Management Activity. TMA issued “Fiscal Year 2006 DHP
    Funding Guidance” for MHS on January 13, 2006. The guidance requires the
    Services to provide monthly status reports using the Cost of War report format.
    Additionally, the guidance requires the Military Departments to report cumulative
    GWOT obligations by mission. TMA has not issued formal guidance requiring
    that FADs clearly identify GWOT supplemental funds, outlining procedures for
    allocating costs to transactions that may require the use of both supplemental and
    baseline funds (incremental costing), defining missions, or classifying GWOT
    supplemental fund obligations by mission.

    Department of the Army. The U.S. Army Medical Command issued “Fiscal
    Year (FY) 2006 Global War on Terrorism (GWOT) Funding Guidance and
    Budget” on December 9, 2005. The guidance provides procedures for executing
    financial management functions in support of GWOT. The guidance states that
    all obligations must be in support of tasks, missions, or activities that would not
    otherwise have been undertaken if not for the war (incremental costing). The
    Army guidance retitles and further defines the missions used by TMA, discusses
    criteria for assigning GWOT obligations to specific missions, and requires the
    coding of obligations with specific contingency codes. The guidance requires all
    Army MTFs that incur GWOT obligations to submit monthly GWOT cost reports
    by mission. However, Army guidance does not discuss identification of GWOT
    funding on FADs or outline procedures for allocating costs to transactions that
    may require the use of both supplemental and baseline funds.

    Department of the Navy. BUMED issued “Fiscal Year 2006 (FY 2006)
    Supplemental Financial and Logistics Guidance for BUMED Activities” on
    September 28, 2005. The guidance primarily focuses on baseline operations.
    However, the enclosures provide limited guidance on GWOT operations,
    including the coding of obligations. The guidance does not discuss the
    identification of GWOT funding on FADs, criteria for assigning GWOT
    obligations to specific missions, procedures for allocating costs to transactions



                                            12
that may require the use of both supplemental and baseline funds, or the reporting
of GWOT supplemental fund obligations by mission to BUMED.

Department of the Air Force. Air Force Instruction 65-601, Volume 1,
“Financial Management, Budget Guidance and Procedures,” March 2005,
requires all Air Force Major Commands and installation financial management
offices to assign codes to costs incurred for contingency operations. We were
unable to locate Air Force Surgeon General guidance discussing the identification
of GWOT funding on FADs, criteria for assigning GWOT obligations to specific
missions, procedures for allocating costs to transactions that may require the use
of both supplemental and baseline funds, or the need to report GWOT
supplemental fund obligations by mission to the Air Force Surgeon General.

Funding Authorization Documents. TMA and Military Department guidance
does not require identification of GWOT supplemental funds on FADs. In some
cases, TMA generated FADs that did not clearly indicate whether funds were
GWOT supplemental or baseline operating funds or identify the mission for
which the GWOT supplemental funds were intended. FADs that transferred
funds from the Offices of the Surgeons General to the Army and Air Force MTFs
we visited did not clearly identify the mission for which the funds were intended.
Additionally, some of the FADs commingled baseline operating and GWOT
supplemental funds on the same document. As a result, neither the Military
Department Surgeons General nor MTFs were sure for which mission the funds
were intended.

TMA provided an example of an FY 2007 FAD with language that clearly
identified GWOT supplemental funds and the mission for which those funds were
intended. The FAD also included specific language that stated:
       All activities in receipt of this supplemental funding must accurately
       account and track execution for audit purposes of all funds within their
       control.     In addition, all activities must ensure execution of
       supplemental funds is reported on a monthly basis through their
       component commands. Any and all FAD narrative pertaining to any
       amount of money must accompany same in all subsequent FAD
       distributions.

Although TMA has initiated corrective action in FY 2007, policy requiring that
the above language be included on all FADs and that GWOT supplemental funds
be clearly identified on FADs was not included in the FY 2007 DHP funding
guidance.

The Army established FY 2006 funding thresholds and reimbursed MTFs for
GWOT supplemental fund obligations the MTFs had made using baseline
operating funds. Reimbursements to Army MTFs were based on MTF GWOT
supplemental fund obligations, by mission, that Regional Medical Commands
certified during monthly reporting to the Army Surgeon General. The two Navy
MTFs visited had FADs that clearly identified the amount associated with a
specific mission. However, Navy guidance did not require Navy MTFs to report
obligations by mission. At the two Air Force MTFs, the GWOT FAD trail was
incomplete, and funds were not clearly identified as GWOT or by specific
mission. MHS needs guidance requiring that FADs clearly identify funds as
GWOT supplemental or baseline.



                                         13
Inconsistencies in Recording and Reporting GWOT Supplemental Fund
Obligations. DoD could not ensure that the amounts reported in the FY 2006
DHP Cost of War report were accurate or complete. Current guidance does not
provide procedures to assist MTFs in determining whether GWOT supplemental
fund obligations should be funded incrementally with GWOT supplemental funds,
baseline funds, or a combination thereof. Incremental costs exceed the DoD
Components’ appropriations and would not have been incurred had the
contingency operation not been supported. The examples that follow describe
instances in which MTFs purchased items or services that may be used for a
combination of GWOT and non-GWOT purposes.

              •   One MTF purchased 11 laptop computers with GWOT
                  supplemental funds for a training facility that has a dual
                  mission of supporting graduate medical education and training
                  soldiers who provide medical care during combat.

              •   One MTF renovated its blood donation center with GWOT
                  supplemental funds. The MTF collects blood donations for use
                  in its facility or for use at other MTFs. The MTF also collects
                  blood donations for overseas shipment in support of Operation
                  Enduring Freedom and Operation Iraqi Freedom.

              •   One MTF renovated its dining facility with GWOT
                  supplemental funds. The dining facility is used by MTF
                  personnel, MHS beneficiaries, and other eligible patrons.

Following are examples of MTFs inconsistently using GWOT supplemental or
baseline funds for similar purposes.

              •   Some MTFs charged GWOT supplemental funds for
                  immunizations given to active-duty personnel, regardless of
                  whether soldiers were deploying in support of a contingency
                  operation. Other MTFs considered immunizations a part of
                  normal readiness and used baseline funds.

              •   One MTF charged baseline funds for post deployment
                  screenings instead of charging GWOT supplemental funds.
                  Another MTF used GWOT supplemental funds for post
                  deployment screenings.

Guidance also is needed to define and clarify missions that should be supported
with GWOT supplemental funds. We identified inconsistencies in how resource
managers classified GWOT supplemental fund obligations by mission. Two
examples follow.

              •   A resource manager identified contracted nursing positions to
                  support a surge of returning soldiers as medical backfill. The
                  positions were not to support nurses who deployed, but were to
                  provide casualty care for a surge of returning soldiers. There
                  was confusion at the MTF on which mission this obligation



                                   14
                                  would apply to. The MTF did not receive GWOT
                                  supplemental funds to support the active-duty casualty care
                                  mission.

                             •    A resource manager considered GWOT supplemental fund
                                  obligations in support of pre and post deployment medical
                                  activities and obligations in support of post deployment health
                                  reassessment activities3 to be similar, and classified both types
                                  of activities under the post deployment health reassessment
                                  mission. Pre and post deployment medical activities and post
                                  deployment health reassessment are separate missions, and
                                  obligations should be reported accordingly. The MTF did not
                                  receive GWOT supplemental funds to support the pre and post
                                  deployment medical activities mission.

           Because of scope limitations discussed in Appendix A, we were unable to
           quantify the effect the above inconsistencies had on the FY 2006 DHP Cost of
           War report. Inconsistencies in obligations made with GWOT supplemental funds,
           baseline funds, or a combination thereof, along with misclassification of GWOT
           supplemental fund obligations by MTF personnel, can result in reporting
           misstatements. TMA should issue guidance on the appropriate use and
           classification of GWOT supplemental fund obligations. Improved guidance will
           improve the reliability of GWOT supplemental fund recording and reporting by
           mission or other appropriate category and provide increased accuracy in the DHP
           Cost of War report.


Other Matter of Interest
           In addition to the above problems with reporting GWOT supplemental fund
           obligations, we found that the delayed receipt of GWOT supplemental funds
           caused difficulties in managing GWOT supplemental funds.

           Congress approved the FY 2006 GWOT supplemental fund appropriation on
           June 15, 2006, or about 9 months into the fiscal year. As a result, MHS received
           its first allocation of GWOT supplemental funds 3 months before the obligation
           authority expired. The delayed receipt of GWOT supplemental funds caused
           MTFs to forward fund or “cash flow” GWOT obligations with baseline operating
           funds.

           MTFs we visited were required to accept financial risks because GWOT
           supplemental fund obligations were made from baseline operating funds for about
           9 months of the fiscal year. Without timely receipt of supplemental funds, the
           sharing of GWOT and operational requirements can affect MTF operations. For
           example, MTFs contracted for medical backfill services during the last remaining
           days of the fiscal year. Delayed medical backfill contracting can result in
           misstated DHP Cost of War reports because medical contracts were funded in
           FY 2006, but most of the medical services were received in FY 2007.


3
    These activities include providing mental health assessments, evaluations, and treatment for active-duty
    and reserve component personnel 3 to 6 months after deployment.



                                                       15
    MTFs are required to fund GWOT requirements and their day-to-day baseline
    operations for most of the fiscal year using baseline funds. As a result, the
    FY 2006 DHP Cost of War report included GWOT supplemental and baseline
    obligations. Delayed receipt of GWOT supplemental funds can expose MTFs to
    financial risk. Because MHS cannot control the timing of supplemental
    appropriations, we are not making recommendations in this area. However,
    opportunities exist to better account for and execute GWOT supplemental funds
    by enabling MTFs to make contracting decisions that result in the best value,
    reduce the negative effect on day-to-day baseline operations, and ensure accurate
    recording and reporting in the DHP Cost of War report.


Conclusion
    If TMA considers mission-based reporting important to requesting, justifying, and
    executing GWOT supplemental funds, it is essential that the Military
    Departments’ financial systems report GWOT supplemental fund obligation
    information accurately and consistently. Currently, the Military Departments
    provide monthly GWOT supplemental fund obligation reports to TMA. TMA
    then adds to and compiles GWOT supplemental fund obligations and forwards the
    results to DFAS. DFAS compiles the GWOT supplemental fund obligations for
    all of DoD and issues monthly consolidated Cost of War reports. Because of
    inconsistent reporting of GWOT supplemental fund medical obligations by
    mission, there is no assurance that MTFs used GWOT supplemental funds for the
    missions for which they were requested. Additionally, inconsistencies in the use
    of supplemental funds and the misclassification of GWOT supplemental fund
    obligations can result in over- or underreporting of those obligations. Accurate
    and complete reporting will provide reasonable assurance that GWOT
    supplemental funds are budgeted and spent for their intended purpose and that the
    DHP Cost of War report provides accurate and up-to-date reporting of GWOT
    supplemental fund obligations.


Management Comments on the Finding
    The ASD(HA) concurred with the draft report’s conclusions. The ASD(HA)
    agreed that a material weakness exists concerning the recording and reporting of
    GWOT supplemental fund obligations within MHS. The ASD(HA) stated that
    his staff is working closely with the other DoD Components to correct
    deficiencies attendant to recording and reporting GWOT supplemental
    obligations.

    In comments on the draft report, the Army Surgeon General stated that the Army
    Medical Command is the largest user of GWOT funds and has worked diligently
    to establish and mandate accountability of GWOT funds. The Army Surgeon
    General stated that the Army Audit Agency has performed audits of the use of
    supplemental funds at Army MTFs. The Army Audit Agency reports listed in
    Appendix A were completed at the request of the Army Surgeon General.



                                        16
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of Defense (Health Affairs):

            1. Coordinate with personnel from the Military Department
    Surgeons General offices and Military Department financial management
    offices to determine the best solution for recording and reporting obligations
    of Global War on Terrorism supplemental funds for the Military Health
    System by mission or other category deemed appropriate. The best solution
    should be coordinated with the steering group established by the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer.

    ASD(HA) Comments. The ASD(HA) concurred, stating that DoD Component
    accounting systems do not capture the information needed to request and justify
    supplemental funds the DoD Components report in the Defense Health Program
    Cost of War report. The ASD(HA) stated that three TMA accounting systems
    and the Army Medical Command accounting system currently meet the
    requirements needed to properly account for GWOT funding and execution. The
    ASD(HA) stated that BUMED is now working on updating its accounting system
    to include all DHP GWOT missions. ASD(HA) personnel met with all MHS
    Component GWOT analysts in November 2007 to establish standard MHS
    mission descriptions for use in recording and reporting GWOT obligations. The
    ASD(HA) stated that there are nine missions included in the DoD Contingency
    Operations Support Tool and, when appropriate, additional missions with
    descriptions will be added to accommodate new and unique costs that are in
    support of contingency operations.

    Audit Response. We consider the ASD(HA) comments and planned actions
    partially responsive. We note that the ASD(HA) has determined that GWOT
    missions are the best solution for recording and reporting GWOT obligations.
    The efforts to establish standard MHS mission descriptions should assist MHS in
    capturing the information needed to accurately report GWOT supplemental fund
    obligations. However, the ASD(HA) did not discuss the results of his efforts to
    coordinate the best solution for recording and reporting GWOT supplemental
    fund obligations with the steering group established by the USD(C)/CFO. We
    request that the ASD(HA) provide the results of those coordination efforts.

    We agree that the different DoD Component accounting systems must contain
    unique accounting codes to enable MTFs to record and report GWOT supplement
    fund obligations by mission. However, at the time of our visits, the Army
    Medical Command accounting system did not track GWOT funding and
    execution by mission. At the MTFs visited, the Army GWOT supplemental fund
    obligation reports were manually prepared, and an Army-wide automated
    reporting capability by mission did not exist. We request that the ASD(HA)
    further explain how the Army Medical Command accounting system provides the
    capability to account for GWOT funding and execution by mission. We note that
    the Army comments support our position that this capability does not currently
    exist. We also request that the Assistant Secretary provide a projected date when
    the Military Department Surgeons General accounting systems will be able to
    capture, record, and report GWOT supplemental fund obligations by mission.



                                       17
Military Department Comments. Although not required, the Army and Air
Force Surgeons General commented on Recommendation 1. The Army Surgeon
General stated that, in order to automate the process for tracking and classifying
GWOT obligations, it would need to establish functional cost account codes with
the Defense Finance and Accounting Service. Such a process would enable the
Army to record and report GWOT supplemental fund obligations, by mission, to
TMA. The Air Force Surgeon General stated that his office is working with Air
Force financial management personnel to establish new cost centers that will
allow more precise GWOT accounting and permit the tracking of obligations by
mission category. The Air Force Surgeon General estimated those efforts would
be completed by January 31, 2008.

       2. Convene a working group to develop Military Health System
guidance outlining policy and procedures for recording and reporting
obligations of Global War on Terrorism supplemental funds for the Military
Health System. The guidance should:

               a. Require Funding Authorization Documents to clearly
identify Military Health System Global War on Terrorism supplemental
funds.

Management Comments. The ASD(HA) concurred. He stated that, in FY 2007,
MHS changed the instructions on all GWOT FADs to include specifics on
tracking, executing, and reporting obligations for all GWOT supplemental
funding. Additionally, the ASD(HA) stated that this updated FAD guidance was
also included in the FY 2007 and in the draft FY 2008 Funding Guidance Letters.
MHS Components were instructed to ensure that all MHS activities that receive
supplemental funding properly track, monitor, and report execution of funds
within their control.

Although not required, the Army Surgeon General and Air Force Surgeon
General provided comments on Recommendation 2. On Recommendation 2.a.,
the Army Surgeon General stated that it currently provides detailed guidance as
part of its fiscal funding guidance and separate GWOT funding guidance. The
Army Surgeon General stated that recording a separate functional cost account
code on FADs, for each mission, would identify GWOT funding issued to Army
activities.

The Air Force listed several corrective actions. The first was participation in a
working group with representatives from the Army, Navy, and TMA to develop
consistent policies and procedures for recording and reporting GWOT
supplemental fund obligations. Additional corrective actions included identifying
mission categories on Funding Authorization Documents, drafting a policy letter
with instructions on managing GWOT funds, and establishing new responsibility
centers or cost centers for more precise and visible GWOT accounting. In
addition, the Air Force Surgeon General recommended that TMA establish a
separate code for contingency operations.

Audit Response. The comments from the ASD(HA), the Army, and the Air
Force are fully responsive.



                                    18
              b. Provide MHS-wide standard definitions and criteria, to the
extent possible, for classifying obligations of Global War on Terrorism
supplemental funds for the Military Health System by mission or by the
category determined in Recommendation 1.

Management Comments. The ASD(HA) concurred, stating that DHP mission
descriptions were updated by MHS GWOT analysts in November 2007. Each
analyst was encouraged to ensure widest dissemination of the DHP mission
definitions and descriptions.

Audit Response. The comments from the ASD(HA) are fully responsive.

             c. Establish procedures for determining and documenting
incremental costing of Global War on Terrorism transactions.

Management Comments. The ASD(HA) concurred, stating that developing, and
instituting standard definitions and criteria for classifying GWOT obligations will
be an ongoing task. The ASD(HA) stated that MHS components are working to
determine activities and missions where MHS-wide guidance would be
appropriate.

Audit Response. The ASD(HA) comments partially satisfy the intent of the
recommendation. We request that the ASD(HA) provide the guidance and
criteria established to date regarding the procedures for determining and
documenting incremental costing of GWOT supplemental funds. We also request
that the ASD(HA) provide an estimated date when the guidance will be issued.

             d. Require Military Treatment Facilities to track obligations
of Global War on Terrorism supplemental funds for the Military Health
System by mission or by the category determined in Recommendation 1.

Management Comment. The ASD(HA) concurred.

Audit Response. The comments from the ASD(HA) are fully responsive.




                                    19
Appendix A. Scope and Methodology
   We conducted this performance audit from December 2006 through
   September 2007 in accordance with generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our finding and conclusions based on our audit
   objectives.

   The audit focused on the process used by Military Department Surgeons General
   and MTF personnel to record and report medical obligations in support of
   GWOT. We reviewed laws, policies, and guidance dated from 1996 through
   2007 relating to contingency operations and the procedures for accounting for
   supplemental funds. We assessed the effectiveness of the process used by the
   Surgeon General for each Military Department for recording and reporting
   GWOT supplemental fund obligations, and we evaluated the procedures used for
   reporting obligations by mission to TMA. We also documented the procedures
   TMA uses for summarizing medical supplemental fund obligations.

   We contacted or met with representatives from the USD(C)/CFO, the Military
   Department Assistant Secretaries for Financial Management and Comptroller, the
   Office of the Assistant Secretary of Defense (Health Affairs), TMA, the Military
   Department Surgeons General, and six MTFs. During those visits, we obtained
   background information and summary information on GWOT supplemental funds
   for MHS. We also coordinated the results of the audit with DFAS personnel.

   We judgmentally selected two MTFs each from the Army, Navy, and Air Force
   using GWOT financial information provided to us by the Military Department
   Surgeons General. From each Military Department, we obtained FY 2006 total
   GWOT supplemental fund obligations. Using the information provided by the
   Surgeons General, we developed a summary of pre and post deployment and
   medical backfill obligations by MTF. MTFs were selected by ranking total
   GWOT supplemental fund obligation information provided to us by Surgeon
   General personnel. We also considered previous audit work by the Military
   Department audit organizations and the geographical locations of each MTF.
   Using that information, we judgmentally selected two MTFs each in the Army,
   Navy, and Air Force for review. One of the Navy MTFs was located at a Marine
   Corps installation.

   At the six MTFs, we used a two-phased approach to evaluate the recording and
   reporting of GWOT supplemental fund obligations. The first phase involved
   documenting the process MTFs used to record GWOT supplemental fund
   obligations for pre and post deployment medical activities and medical backfill of
   deployed staff missions. Because a central database of GWOT supplemental fund
   obligations by mission did not exist, we documented the process MTFs use to
   report all GWOT supplemental fund obligations. The second phase involved the
   judgmental selection of individual obligations at each MTF. For each
   judgmentally selected obligation, we obtained available documentation that was
   used to justify and support the obligation. We also evaluated the process the


                                       20
    Military Department Surgeons General use for reporting GWOT supplemental
    fund obligation information to TMA and documented the process TMA uses for
    reporting GWOT supplemental fund obligations to DFAS.

    Limitations to Audit Scope. Our original objective was to sample FY 2006
    medical GWOT supplemental fund obligations. We initially selected pre and post
    deployment and medical backfill mission obligations for evaluation. Our intent
    was to statistically sample pre and post deployment and medical backfill
    obligations. Because a centralized database of medical GWOT obligations by
    mission did not exist, we instead focused on the abilities of the Military
    Department medical accounting systems to report GWOT supplemental fund
    obligations by mission.

    Use of Computer Processed Data. We relied on data from the Army’s Standard
    Financial System, the Navy’s Standard Accounting and Reporting System, and
    the Air Force’s General Accounting and Finance System to judgmentally select
    GWOT supplemental fund obligations. During the audit, we performed limited
    reliability tests on the accuracy of the financial information reported in the
    FY 2006 DHP Cost of War report. We also performed limited reliability testing
    of obligations by reconciling them to source documentation such as approval
    documents and contractual documents. The coding, classification, and recording
    inconsistencies discussed in this report were a result of incomplete and
    inconsistent procedures. We did not assess the overall accuracy or reliability of
    the systems used to report information to TMA, and our conclusions were not
    dependent on the accuracy of those systems that were used to process GWOT
    supplemental fund obligations.

    Use of Technical Assistance. Personnel from the Quantitative Methods
    Directorate provided technical support for this project. The report did not use
    significant quantitative methods nor did it present any statistical results.

    Government Accountability Office High Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the DoD Financial Management high-risk area.


Prior Coverage
    Since 2003, the Army Audit Agency (AAA) has issued four reports discussing
    medical GWOT supplemental funding in MHS:

    AAA Report No. A-2007-0095-FFH, “FY 06 Supplemental Funding for the
    Global War on Terrorism: U.S. Army Medical Command,” March 2007

    AAA Report No. A-2007-0039-FFP, “Global War on Terrorism Supplemental
    Funding, Tripler Army Medical Center,” December 2006

    AAA Report No. A-2007-0033-FFH, “Medical Funding for the Global War on
    Terrorism: U.S. Army Medical Command,” December 2006

    AAA Report No. A-2005-0098-FFH, “Medical Funding for the Global War on
    Terrorism: U.S. Army Medical Command,” February 2005


                                        21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Assistant Secretary of Defense (Health Affairs)
Director, Program Analysis and Evaluation
Director, Defense Finance and Accounting Service

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      23
Assistant Secretary of Defense (Health Affairs)
Comments




                       25
26
27
Department of the Army Comments




                    28
29
30
31
Department of the Air Force Comments




                     32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support Directorate prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Wanda A. Scott
Robert F. Prinzbach II
Michael A. Joseph
Timothy J. Tonkovic
Anna P. Martin
Tamika S. Ali
Danny O. Hatten
Mary Ann Hubbell
Laura L. Sanders
Laura G. Walton
James D. Hartman
DharamV. Jain
Allison Tarmann
